No. 20-437

IN THE

Supreme Court of the United States
UNITED STATES,
Petitioner,
v.
REFUGIO PALOMAR-SANTIAGO,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

MOTION FOR APPOINTMENT OF COUNSEL

Rene L. Valladares
Federal Public Defender
Cristen C. Thayer
Aarin E. Kevorkian
Ellesse Henderson
Assistant Federal Public Defenders
OFFICE OF THE
FEDERAL PUBLIC DEFENDER
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577

Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2600
Bradley N. Garcia
Counsel of Record
O’MELVENY & MYERS LLP
1625 Eye Street, NW
Washington, DC 20006
(202) 383-5300
bgarcia@omm.com

Respondent Refugio Palomar-Santiago hereby moves, pursuant to Supreme
Court Rule 39.7, to appoint Bradley N. Garcia of O’Melveny & Myers LLP as his
counsel of record.

In support of this motion, respondent supplies the following

information:
1. This Court granted certiorari and respondent’s motion to proceed in forma
pauperis in this case on January 8, 2021.
2. Mr. Garcia is well qualified to undertake this representation. He is a partner
at O’Melveny, and has been involved in numerous cases in this Court. Mr. Garcia
also served as a law clerk at the Court, adding to his familiarity with the Court’s
processes.
3. Mr. Garcia and O’Melveny have the resources necessary to undertake the
representation. O’Melveny’s appellate department has extensive experience in cases
before the Court. Jeffrey L. Fisher, who serves as special counsel at O’Melveny and
as the Co-Director of Stanford Law School’s Supreme Court Litigation Clinic, is also
actively involved in the representation. O’Melveny will serve as co-counsel with the
Federal Public Defender’s Office for the District of Nevada, which represented
respondent in the Ninth Circuit and during the certiorari stage in this Court.
4. Mr. Garcia has been a member in good standing of the Maryland Bar since
2011 and of the District of Columbia Bar since 2015. He is also a member of this
Court’s bar.

1

CONCLUSION
For the foregoing reasons, respondent respectfully requests that this Court
appoint Mr. Bradley N. Garcia as his counsel of record in this case.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
Cristen C. Thayer
Aarin E. Kevorkian
Ellesse Henderson
Assistant Federal Public Defenders
OFFICE OF THE
FEDERAL PUBLIC DEFENDER
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577

2

Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
(650) 473-2600
Bradley N. Garcia
Counsel of Record
O’MELVENY & MYERS LLP
1625 Eye Street, NW
Washington, DC 20006
(202) 383-5300
bgarcia@omm.com

